               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        Fiscal Year 2012 Postal Service
          Financial Statements Audit –
               Washington, D.C.
                 Headquarters

                       Audit Report




                                              January 4, 2013

Report Number FT-AR-13-007
                                                                         January 4, 2013

                                                        Fiscal Year 2012 Postal Service
                                                          Financial Statements Audit –
                                                       Washington, D.C. Headquarters

                                                          Report Number FT-AR-13-007



BACKGROUND:
U.S. Postal Service Headquarters              WHAT THE OIG FOUND:
Finance establishes accounting policies       Financial accounting policies and
and provides guidelines for recording         procedures of the Postal Service
and reporting Postal Service financial        provided for an adequate internal control
transactions. Internal control and            structure and complied with accounting
reporting systems have been created to        principles generally accepted in the U.S.
ensure management and the public              In addition, accounting transactions
receive meaningful financial information      were fairly stated in accordance with
in accordance with generally accepted         accounting principles generally
accounting principles.                        accepted in the U.S., and general ledger
                                              account balances conformed to the
We conducted this audit in support of         general classification of accounts of the
the independent public accounting firm’s      Postal Service on a basis consistent
overall audit opinions on the Postal          with that of the previous year.
Service’s financial statements and
internal controls over financial reporting.   However, the Postal Service had two
                                              instances of noncompliance. One
Our objectives were to determine              related to the suspension of the Postal
whether:                                      Service’s obligation to the Federal
                                              Employee Retirement System and the
   Financial accounting policies and         other a default on two required
    procedures provide for an adequate        prefunding payments to the Postal
    internal control structure and comply     Service Retiree Health Benefit Fund.
    with accounting principles.               The Postal Service resumed the
                                              obligation and repaid amounts
   Accounting transactions are fairly        previously suspended. The Postal Act of
    stated.                                   2006 contains no provisions addressing
                                              a prefunding payment default. We did
   General ledger account balances           not propose any adjustments; however,
    conform to the general classification     during the year, we reviewed controls
    of accounts.                              over financial reporting.

   The Postal Service complies with          WHAT THE OIG RECOMMENDED:
    laws and regulations that have a          Based on the results of our audit, we did
    direct and material effect on the         not make any recommendations.
    financial statements.
                                              Link to review the entire report
January 4, 2013

MEMORANDUM FOR:             TIMOTHY F. O’REILLY
                            VICE PRESIDENT, CONTROLLER




FROM:                       John E. Cihota
                            Deputy Assistant Inspector General
                             for Financial and Systems Accountability

SUBJECT:                    Audit Report – Fiscal Year 2012 Postal Service Financial
                            Statements Audit – Washington, D.C. Headquarters
                            (Report Number FT-AR-13-007)

This report presents the results of our audit of selected financial activities and
accounting records at Washington, D.C. Headquarters for the fiscal year ended
September 30, 2012 (Project Number 12BM005FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice Millett, director,
Finance, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Jack L. Meyer
    Corporate Audit and Response Management
Fiscal Year 2012 Postal Service Financial Statements                                                               FT-AR-13-007
 Audit – Washington, D.C. Headquarters




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Required Federal Employees Retirement System and Retiree Health Benefits Fund

      Payments .................................................................................................................. 2

Recommendations .......................................................................................................... 2

Appendix A: Additional Information ................................................................................. 3

   Background ................................................................................................................. 3

   Objectives, Scope, and Methodology .......................................................................... 3

   Prior Audit Coverage ................................................................................................... 5
Fiscal Year 2012 Postal Service Financial Statements                                                    FT-AR-13-007
 Audit – Washington, D.C., Headquarters



Introduction

This report presents results of our audit of the selected financial activities and
accounting records at Washington, D.C., Headquarters for the fiscal year ended
September 30, 2012 (Project Number 12BM005FT000). We conducted this audit in
support of the independent public accounting firm’s (IPA) overall audit opinions on the
U.S. Postal Service’s financial statements and internal controls over financial reporting.1
This audit addresses financial risk. See Appendix A for additional information about this
audit.

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. Also, the U.S. Congress enacted Sarbanes-Oxley
(SOX) legislation in calendar year 2002 to strengthen public confidence in the accuracy
and reliability of financial reporting. Section 404 of SOX requires management to state
its responsibility for establishing and maintaining an adequate internal control structure
and make an assertion on the effectiveness of the internal control structure over
financial reporting. The Postal Accountability and Enhancement Act of 2006 (Postal Act
of 2006) requires the Postal Service to comply with Section 404 of SOX. The Board of
Governors (Board) contracted with the IPA to express opinions on the Postal Service’s
financial statements and internal controls over financial reporting.

Conclusion

During our audit at Washington, D.C. Headquarters, we noted:

   Financial accounting policies and procedures of the Postal Service provided for an
    adequate internal control structure2 and complied with accounting principles
    generally accepted in the U.S.

   Accounting transactions at headquarters impacting the general ledger account
    balances for assets, liabilities, equity, income, and expenses of the Postal Service
    were fairly stated in accordance with accounting principles generally accepted in the
    U.S.

   General ledger account balances conformed to the general classification of accounts
    of the Postal Service on a basis consistent with that of the previous year.

   The Postal Service had two instances of noncompliance. One instance was related
    to the suspension of the Postal Service’s obligation to the Federal Employees
    Retirement System (FERS). The Postal Service resumed the obligation and repaid
    the amounts previously suspended, which rectified the noncompliance before
1
  The IPA maintains overall responsibility for testing and review of significant headquarters accounts and processes.
The U.S. Postal Service Office of Inspector General (OIG) coordinated audit work with the IPA to ensure adequate
coverage.
2
  To ensure key controls are properly designed and operationally effective.
                                                             1
Fiscal Year 2012 Postal Service Financial Statements                              FT-AR-13-007
 Audit – Washington, D.C. Headquarters


      September 30, 2012. The other instance involved the default on two required
      prefunding payments to the Postal Service Retiree Health Benefit Fund totaling
      $11.1 billion during fiscal year (FY) 2012. The Postal Act of 2006, establishing the
      prefunding payment schedule, contains no provisions addressing a payment default.

We did not propose any adjustments; however, throughout the year, we reviewed
internal controls over financial reporting.

Required Federal Employees Retirement System and Retiree Health Benefits
Fund Payments

As noted in the IPA’s Report on Internal Control Over Financial Reporting and on
Compliance and Other Matters Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards, dated November 15, 2012; and our
report on the Opinion of the Postal Service’s Special Purpose Financial Statements,3
the Postal Service, during FY 2012, did not make legislatively mandated payments to
FERS and to the Retiree Health Benefits Fund.

     The Postal Service failed to comply with Title 5, Section 8423, Government
      Contributions, when it suspended its required biweekly employer contributions into
      FERS from October to November 2011, payable to the Office of Personnel
      Management (OPM). The Postal Service suspended the payments to conserve cash
      and continue fulfilling its primary legal obligation of providing universal service. In
      December 2011, the Postal Service resumed normal biweekly employer
      contributions and repaid to OPM the amounts previously suspended.

     The Postal Service failed to comply with the Postal Act of 2006 when it defaulted on
      two scheduled prefunding payments into the Retirees Health Benefits Fund:
      $5.5 billion due by August 1, 2012, and $5.6 billion due by September 30, 2012. The
      Postal Service defaulted on the required payments due to insufficient cash
      resources on hand and to continue fulfilling the primary legal obligation of providing
      universal service. Management noted they have not suffered any penalties or
      damages as a result of its inability to make these payments, and hopes that
      legislation will be enacted to significantly reduce or eliminate the required payments.

Recommendations

Based on the results, we are not making any recommendations in this report. As a
result, management chose not to respond formally to this report.




3
    Report Number FT-AR-13-003, dated November 16, 2012.


                                                       2
Fiscal Year 2012 Postal Service Financial Statements                                                    FT-AR-13-007
 Audit – Washington, D.C. Headquarters


                                 Appendix A: Additional Information

Background

Postal Service Headquarters Finance establishes accounting policies and provides
guidelines for recording and reporting Postal Service financial transactions. Internal
control and reporting systems have been created to ensure management and the public
receive meaningful financial information in accordance with generally accepted
accounting principles.

We will issue separate financial statements audit reports for Eagan, MN; San Mateo,
CA; and St. Louis, MO Accounting Services. Further, in addition to the overall opinions
on the Postal Service’s financial statements and internal controls over financial
reporting, the IPA issued a separate report on its consideration of the Postal Service’s
internal controls and its test of compliance with certain provisions of laws, regulations,
contracts, and other matters. The purpose of that report was to describe the scope of
testing of internal controls over financial reporting and compliance and the results of that
testing, not to provide an opinion on internal controls over financial reporting or on
compliance.4 The OIG will also issue a separate report for the audit of the FY 2012
information system controls at the Eagan, San Mateo, and St. Louis Information
Technology and Accounting Service Centers; and the Raleigh Information Technology
Service Center.

Objectives, Scope, and Methodology

The objectives of the audit were to determine whether:5

   The financial accounting policies and procedures of the Postal Service provide for an
    adequate internal control structure6 and comply with accounting principles generally
    accepted in the U.S.

   Accounting transactions at headquarters that impact the general ledger account
    balances for assets, liabilities, equity, income, and expenses of the Postal Service
    are fairly stated in accordance with accounting principles generally accepted in the
    U.S.

   General ledger account balances conform to the general classification of accounts of
    the Postal Service on a basis consistent with that of the previous year.

   The Postal Service complies with laws and regulations that have a direct and
    material effect on the financial statements taken as a whole.


4
  In addition to the IPA’s work, these reports encompass work the OIG performed at headquarters, three Integrated
Business Systems Solutions Centers, field sites, and the Raleigh Information Technology Service Center.
5
  The IPA maintains overall responsibility for testing and review of significant headquarters accounts and processes.
The OIG coordinated audit work with the IPA to ensure adequate coverage.
6
  To ensure key controls are properly designed and operationally effective.


                                                          3
Fiscal Year 2012 Postal Service Financial Statements                                                   FT-AR-13-007
 Audit – Washington, D.C. Headquarters


As part of our audit, we reviewed internal controls and processes and significant
headquarters accounts (for example, workers’ compensation and unemployment
compensation), manual journal vouchers,7 and laws and regulations. We verified the
Board travel and miscellaneous expenses totaling about $216, 000 and external
professional fees totaling about $492,000; and tested about $153,000 of officers’ travel
and representation expenses. We will issue separate reports for the audits of the
FY 2012 Board travel and miscellaneous expenses and officers travel and
representation expenses.

As part of our audit, we assessed internal controls, tested transactions, and verified
account balances. We conducted this audit from January 2012 through January 20138
in accordance with the standards of the Public Company Accounting Oversight Board
(U.S.) (PCAOB) and the standards applicable to financials audits contained in the
Government Auditing Standards issued by the comptroller general of the U.S. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to limit audit risk to a low level that is, in our professional judgment,
appropriate for supporting the overall audit opinion on the financial statements. Those
standards also require considering the results of previous engagements and following
up on known significant findings and recommendations that directly relate to the
objectives of the audit. An audit also requires sufficient understanding of internal
controls to plan the audit and determine the nature, timing, and extent of audit
procedures to be performed. We believe the evidence obtained provides a reasonable
basis for our conclusion based on our audit objectives. We provided a draft copy of this
report to management on November 20, 2012, and, because we did not make any
recommendations, management chose not to respond formally to this report.

We supported the IPA in obtaining reasonable assurance about whether the financial
statements were free of material misstatement (whether caused by error or fraud).
Absolute assurance is not attainable because of the nature of audit evidence and the
characteristics of fraud. Therefore, an audit conducted in accordance with the PCAOB
standards and Government Auditing Standards may not detect a material misstatement.
However, the IPA and the OIG are responsible for ensuring that appropriate
Postal Service officials are aware of any significant deficiencies that come to our
attention.




7
  Statement on Auditing Standards (SAS) Number 99, Consideration of Fraud in a Financial Statement Audit, as
amended by SAS 113, Omnibus 2006, requires auditors to perform certain tasks to address the risk of management
override of internal control. To address such situations, SAS Number 99 requires auditors to test the appropriateness
of journal entries recorded in the general ledger and other adjustments.
8
  The scope of our audit was October 1, 2011 through September 30, 2012.


                                                          4
Fiscal Year 2012 Postal Service Financial Statements                                                    FT-AR-13-007
 Audit – Washington, D.C. Headquarters


We relied on computer-generated data from several Postal Service financial systems,
including:

        eTravel System.9
        Workers’ Compensation Master File.
        Accounting Data Mart.10

We assessed the reliability of these systems’ data by performing specific internal control
and transaction tests, including tracing selected financial information to supporting
source records. For example, we traced workers’ compensation master file data to a
random sample of 60 case files. We determined the data were sufficiently reliable for
the purposes of this report.

Prior Audit Coverage

                                                                           Final
                                                                          Report                Monetary
          Report Title            Report Number                            Date                  Impact
Fiscal Year 2011 Postal            FT-AR-12-005                         12/12/2011                None
Service Financial Statements
Audit – Washington, D.C.
Headquarters
Report Results: We did not propose any adjustments; however, we identified a
control deficiency regarding manual JV processing. Because management took
corrective action, we did not make any recommendations.
                                                       Final
                                                      Report      Monetary
         Report Title            Report Number          Date       Impact
Fiscal Year 2010 Postal            FT-AR-11-002     12/6/2010       None
Service Financial Statements
Audit – Washington, D.C.
Headquarters
Report Results: We did not propose any adjustments; however, we identified a
control deficiency regarding manual JV processing. Because management took
corrective action, we did not make any recommendations.




9
  The online application used to create work travel expense reports, electronically submit expense reports to
authorized approvers, and track reimbursement status.
10
   The repository for accounting and finance-related data for the Postal Service and part of the Enterprise Data
Warehouse.


                                                           5
